No. 19-1218

In the Supreme Court of the Anited States

Marcus Lee Robinson,
Petitioner,

Vv.

Colorado,
Respondent.

On Petition for a Writ of Certiorari
to the Colorado Supreme Court

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Reply Brief in
the above-entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in Century Schoolbook 12 point for the text and 10
point for the footnotes, and that the Reply Brief contains 1,590 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 1, 2020.

“UN

Stuart Banner

UCLA School of Law
405 Hilgard Ave.

Los Angeles, CA 90095
(310) 206-8506
banner@law.ucla.edu
Counsel for Petitioner
